APPENDIX TO
PETITION FOR A WRIT OF CERTIORARI
TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Fourth Circuit (Aug. 16, 2019) ......................1a
Memorandum Opinion and Order of the United
States District Court for the Eastern District of
Virginia (May 11, 2018) ...........................................22a
Order Denying Rehearing En Banc of the United
States Court of Appeals for the Fourth Circuit
(Sept. 16, 2019) ........................................................34a
Judgment in a Civil Case of the United States
District Court for the Eastern District of
Virginia (June 21, 2018) ..........................................35a

1a
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
_________________
No. 18-1789
_________________
ANTONIO PASSARO, JR.,
Plaintiff – Appellant,
v.
COMMONWEALTH OF VIRGINIA;
DEPARTMENT OF STATE POLICE,

VIRGINIA

Defendants – Appellees,
_________________
Appeal from the United States District Court for the
Eastern District of Virginia at Norfolk. Douglas E.
Miller, Magistrate Judge. (2:17-cv-00048-DEM)
_________________
Argued: April 3, 2019

Decided: August 16, 2019

_________________
Before RICHARDSON, Circuit Judge, TRAXLER,
Senior Circuit Judge, and Joseph F. ANDERSON, Jr.,

2a
Senior United States District Judge for the District of
South Carolina, sitting by designation.
_________________
Affirmed in part, reversed in part, and remanded by
published opinion.
Judge Richardson wrote the
opinion, in which Judge Anderson joined. Judge
Traxler wrote an opinion concurring in part and
dissenting in part.
_________________
ARGUED: Kevin Edward Martingayle, BISCHOFF
MARTINGAYLE, P.C., Virginia Beach, Virginia, for
Appellant. Toby Jay Heytens, OFFICE OF THE
ATTORNEY GENERAL OF VIRGINIA, Richmond,
Virginia, for Appellees. ON BRIEF: Mark Herring,
Attorney General, Samuel T. Towell, Deputy Attorney
General, Sydney E. Rab, Senior Assistant Attorney
General, Sarah F. Robb, Assistant Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
VIRGINIA, Richmond, Virginia, for Appellees.

3a
RICHARDSON, Circuit Judge:
Antonio Passaro Jr. is a former Special Agent
with the Virginia State Police. He claims that he faced
unlawful discrimination based on his mental disability
(post-traumatic stress disorder) and national origin
(Italian-American). He also claims that he was
unlawfully fired in retaliation for filing a complaint
with the Equal Employment Opportunity Commission
(“EEOC”). This conduct, he claims, violated the
Americans with Disabilities Act of 1990 (“ADA”), 42
U.S.C. § 12101 et seq., and Title VII of the Civil Rights
Act of 1964 (“Title VII”), 42 U.S.C. § 2000e et seq. He
has sued the Commonwealth of Virginia and the
Virginia Department of State Police (together, “the
Commonwealth”), seeking relief that includes
compensatory damages, reinstatement, and back pay.
The district court dismissed Passaro’s ADA
claim, concluding that it was barred by state sovereign
immunity.
The court then granted summary
judgment for the Commonwealth on the Title VII
claims, concluding they were barred by the claimpreclusive effect of a state-court judgment upholding
the outcome of an administrative grievance Passaro
had filed. We affirm the district court’s dismissal of
the ADA claim because the Commonwealth has not
waived its sovereign immunity from that claim. But
we reverse the district court’s decision that claim
preclusion bars Passaro’s Title VII claims.
I.
Passaro worked as a Trooper with the
Department of State Police until his promotion to

4a
Special Agent.
In 2008, he transferred to the
department’s High Tech Crimes Unit, where he
investigated child-pornography cases. Starting in
2010, he began receiving disciplinary notices for
infractions arising from his alleged failure to follow
proper procedures and to manage his caseload. The
episode that ultimately led to Passaro’s termination
was an investigation he conducted in April and May
2012, which the department claims he bungled.
In July 2012, a doctor diagnosed Passaro with
post-traumatic stress disorder arising from his
frequent exposure to images of child pornography at
work. Passaro sought a transfer from High Tech
Crimes, which he claims was not granted.
On February 6, 2013, Passaro learned that he
was being recommended for demotion from Special
Agent back down to Trooper. Two days later, Passaro
filed a complaint with the EEOC, asserting that the
department had failed to make reasonable
accommodations for his post-traumatic stress disorder
and had harassed and discriminated against him
based on his disability and national origin.
In March 2013, Passaro was fired. He then filed
a grievance with Virginia’s Office of Employment
Dispute Resolution under Virginia Code § 2.2-3003.
He claimed that his discipline and termination were
unjustified, and also that he had been the victim of
discrimination and harassment. The grievance was
assigned to a hearing officer, who promptly held a
hearing and issued a decision that largely focused on
whether Passaro’s discipline comported with internal
department policies. Despite overturning some of the

5a
disciplinary action against Passaro, the hearing officer
upheld Passaro’s termination.
Passaro sought review of the hearing officer’s
ruling. He filed administrative appeals, which were
denied. Passaro also appealed to a Virginia state court
for review of whether the grievance decision was
“contradictory to law” under Virginia Code § 2.23006(B).
The court largely rejected Passaro’s
arguments but concluded the hearing officer had
overlooked certain testimony. On remand, the hearing
officer affirmed his earlier decision, and Passaro again
filed administrative appeals that were denied.
Passaro returned to state court, which this time
affirmed.
Passaro then appealed to Virginia’s
intermediate appellate court, which affirmed. Passaro
v. Virginia Dep’t of State Police, 796 S.E.2d 439 (Va.
Ct. App. 2017).
His state-court appeals finally
concluded in May 2018, when the Virginia Supreme
Court declined Passaro’s request for rehearing.
In November 2016, while those appeals were
ongoing, Passaro brought the instant action in
Virginia state court against the Commonwealth. His
complaint
asserted
“unlawful
discrimination,
harassment and retaliation,” as well as improper
denials
of
his
“requests
for
reasonable
accommodations.” J.A. 13. The Commonwealth
timely removed the case to federal district court,
asserting federal question jurisdiction based on the
Title VII claims.
The Commonwealth then moved to dismiss, and
the district court granted the motion in part. It
dismissed Passaro’s ADA claim, which it concluded

6a
was barred by state sovereign immunity.1 It also
dismissed Passaro’s Title VII claim for national-origin
discrimination but gave him leave to replead. Passaro
filed
an
amended
complaint,
which
the
Commonwealth answered, asserting numerous
defenses including res judicata. The parties then
consented to have the matter proceed before a
magistrate judge for all purposes.
Before
the
magistrate
judge,
the
Commonwealth sought to stay this action pending
final resolution of Passaro’s state-court appeals,
arguing that the state-court judgment could have
preclusive effect on this case. Passaro responded that,
while he disagreed that the state-court action would
have any preclusive effect, he did not object to a stay.
The court granted the stay, which remained in place
until May 2018.
After the stay was lifted, the Commonwealth
moved for summary judgment, arguing that the statecourt proceedings had claim-preclusive effect on
Passaro’s discrimination and retaliation claims under
Title VII. The district court agreed and entered
judgment for the Commonwealth.
Passaro timely appeals. He argues that the
district court erred in dismissing his ADA claim
because the Commonwealth has waived its state
sovereign immunity. He also argues that claim
preclusion does not bar his Title VII claims, asserting
The district court also dismissed any disability-related
claim under the Virginia Human Rights Act, Va. Code § 2.2-3900
et seq. Passaro has not challenged that dismissal on appeal.
1

7a
that the Commonwealth also waived this defense and,
alternatively, that claim preclusion does not apply.
II.
Title I of the ADA protects workers with
disabilities from discrimination and requires
employers to make reasonable accommodations for
them. On its face, the statute applies to state
governments and authorizes a private cause of action
by state employees. See 42 U.S.C. § 12202. But state
sovereign immunity bars all claims by private citizens
against state governments and their agencies, except
where Congress has validly abrogated that immunity
or the state has waived it. See Virginia Office for Prot.
& Advocacy v. Stewart, 563 U.S. 247, 253–54 (2011);
Puerto Rico Aqueduct & Sewer Auth. v. Metcalf &
Eddy, Inc., 506 U.S. 139, 144 (1993). Although
Congress purported to abrogate state sovereign
immunity from lawsuits under Title I of the ADA, the
Supreme Court has held that Congress exceeded its
authority in doing so. Board of Trustees v. Garrett, 531
U.S. 356 (2001). Therefore, to proceed on his Title I
claim, Passaro must show waiver.
Passaro presents two arguments for waiver.
The first is that the Commonwealth waived its
sovereign immunity by removing this case from state
court to federal court. Our precedent forecloses this
argument unless Passaro can also show that the
Commonwealth has waived its immunity from the
Title I claim in state court. In Stewart v. North
Carolina, 393 F.3d 484 (4th Cir. 2005), we held that
where a state retains its sovereign immunity from suit
in state court, it does not lose that immunity by

8a
removing the case to federal court. Id. at 490. As
Passaro points out, the other courts of appeals have
split on whether to adopt Stewart’s holding: some
have followed Stewart, others have rejected it, and still
others have adopted a supposed “middle ground”
(although this middle ground is hard to distinguish, in
its practical effect, from our approach in Stewart). See
generally Stroud v. McIntosh, 722 F.3d 1294, 1300–01
(11th Cir. 2013) (discussing split). Nothing in these
out-of-circuit cases makes us inclined to revisit
Stewart; in any event, we are powerless to overturn
Stewart.2
We therefore turn to Passaro’s second
argument:
that the Commonwealth has made
statements waiving its sovereign immunity from Title
I actions. Under both federal and Virginia law, a clear
statement is required to waive state sovereign
immunity. See Coll. Sav. Bank v. Florida Prepaid
Postsecondary Educ. Expense Bd., 527 U.S. 666, 676
(1999) (“clear declaration”); Ligon v. Cty. of
Goochland, 689 S.E.2d 666, 670 (Va. 2010) (“explicit
and express waiver”).
Passaro mainly rests this argument on various
statements the Commonwealth has made to the effect
that it intends to abide by its obligations under Title I
of the ADA and that its employees may raise violations
Passaro argues that Stewart conflicts with a more recent
Fourth Circuit decision, which noted “a bright-line rule” that “any
voluntary removal waives immunity.” Sansotta v. Town of Nags
Head, 724 F.3d 533, 546 (4th Cir. 2013). But this language was
dictum that did not address Stewart’s specific holding one way or
the other. And even if it does conflict with Stewart, we remain
bound by the earlier case.
2

9a
with the EEOC. For example, an employee handbook
states that Virginia is “committed to providing equal
employment opportunity” regardless of “disability”
and “complies with federal and state equal
employment opportunity laws.” DEP’T OF HUMAN RES.
MGMT., EMPLOYEE HANDBOOK 24 (2017), available at
https://www.dhrm.virginia.gov/docs/defaultsource/hr/manuals/employeehandbook.pdf.
And a
poster that Virginia puts up in its workplaces explains
to employees that “if you feel you have been
discriminated against,” the EEOC is one of “the
resources available to assist you.” DEP’T OF HUMAN
RES. MGMT., EEO POSTER (2017), available at
https://www.dhrm.virginia.gov/docs/defaultsource/eeo-documents/eeoposter.pdf.
These statements do not show waiver. State
sovereign immunity is an immunity from private suit;
it does not relieve a state of its obligations and does
not bar federal enforcement actions. See Seminole
Tribe of Florida v. Florida, 517 U.S. 44, 71 n.14 (1996).
And while exhaustion of EEOC procedures is a
prerequisite to bringing a private suit, those
procedures also provide a mechanism by which the
federal government investigates claims it may bring
itself. See 42 U.S.C. §§ 2000e-5, 12117(a); cf. EEOC v.
Wash. Suburban Sanitary Comm’n, 631 F.3d 174,
179–80 (4th Cir. 2011) (explaining that EEOC
investigations under the Age Discrimination in
Employment Act can lead to federal enforcement
actions against state governments). Thus, as the
Commonwealth agreed at oral argument, it remains
covered by Title I of the ADA and is not immune from
EEOC investigations of Title I violations.
The
statements
that
Passaro
identifies
merely

10a
acknowledge that fact and have nothing to do with the
Commonwealth’s immunity from private lawsuits.
Equally unavailing is Passaro’s reliance on
Virginia Code § 2.2-3903(D), which provides that
“[c]auses of action based upon the public policies
reflected in [the Virginia Human Rights Act] shall be
exclusively limited to those actions, procedures, and
remedies, if any, afforded by applicable federal or state
civil rights statutes or local ordinances.” Read in
context, this language merely confirms that a different
statute—Virginia’s Human Rights Act—does not
create an implied private right of action. See Va. Code
§ 2.2-3903(A). It comes nowhere close to a clear waiver
of sovereign immunity from claims under Title I of the
ADA.
We thus conclude that the Commonwealth has
not waived its sovereign immunity from private
lawsuits under Title I of the ADA in either state or
federal court. And that also means, under Stewart,
that the Commonwealth did not waive its sovereign
immunity by removing its claims to federal court.
Finally, Passaro suggested at oral argument
that the Commonwealth’s decision to remove, when
combined with the statements he has identified,
somehow amounts to a waiver. In effect, he argues,
we can find a waiver of sovereign immunity based on
less-than-clear statements when a case is removed to
federal court. This argument is inconsistent with
Stewart, which held that removal waives a state’s
immunity defense only when the state has also waived
its immunity in its own courts. In deciding the latter
issue, we must of course follow Virginia law, which

11a
requires an “explicit and express waiver” with no
exception for removal cases (hardly surprising, for
such an exception would not make much sense).
Ligon, 689 S.E.2d at 670. This argument is also
inconsistent with Supreme Court case law, which
consistently requires waiver to be unequivocal.
Therefore, the district court correctly dismissed
Passaro’s ADA claim, and we affirm that part of its
judgment.
III.
We reverse, however, the district court’s ruling
at summary judgment that claim preclusion bars
Passaro’s Title VII claims.3 State law governs whether
a prior state-court judgment has issue-or claimpreclusive effect on a Title VII action. Kremer v.
Chem. Constr. Corp., 456 U.S. 461, 466–78 (1982).
Under Virginia law, it “is firmly established that the
party who asserts the defenses of res judicata or
collateral estoppel has the burden of proving by a
preponderance of the evidence that the claim or issue
is precluded by a prior judgment.” Scales v. Lewis, 541
S.E.2d 899, 901 (Va. 2001). Here, the Commonwealth
asserts that Passaro could have litigated his claims of
discrimination and retaliation through the state
grievance process, meaning that the state-court
judgment (which affirmed the decision on Passaro’s
grievance) has claim-preclusive effect barring his Title
VII claims in full. We disagree.

The Commonwealth has not asserted sovereign
immunity from these claims.
3

12a
Under Virginia’s law of claim preclusion,
parties “may not relitigate ‘the same cause of action or
any part thereof which could have been litigated in the
previous action.’” Bennett v. Garner, 913 F.3d 436, 440
(4th Cir. 2019) (quoting D’Ambrosio v. Wolf, 809
S.E.2d 625, 628 (Va. 2018)). “While ostensibly a broad
proposition, [claim preclusion] nonetheless is limited
by longstanding principles.” Id. In this case, the
Commonwealth’s claim-preclusion defense runs afoul
of one such principle: if procedural rules prevented the
plaintiff from asserting all his claims for relief in a
single case, then claim preclusion does not bar the
plaintiff from bringing a second case to seek the relief
he could not obtain in the first.
The breadth of claim preclusion has long turned
on the plaintiff’s ability to seek comprehensive relief
in a single action. We see this most clearly in the
historical division between law and equity, which
often afforded different remedies on the same facts:
So long as law and equity were
administered by separate courts, or by
different “sides” of the same court, a first
proceeding at law or in equity often could
be followed by a second proceeding in
equity or at law. A party who lost an
action at law on a contract, for instance,
might undo the law judgment by
securing reformation in a subsequent
suit in equity. A court of law, on the
other hand, might cheerfully grant a
damages remedy after denial of an
equitable remedy on discretionary

13a
grounds. Much similar duplication of
litigation occurred.
18 CHARLES ALAN WRIGHT & ARTHUR R. MILLER,
FEDERAL PRACTICE & PROCEDURE § 4410 (3d ed. 2008)
(footnotes omitted). Even where an equity court could
award incidental legal relief, such as damages, claim
preclusion often did not bar a later action at law
because it was thought unfair to force a litigant to seek
damages in equity where he had no right to a jury
trial. Funny Guy, LLC v. Lecego, LLC, 795 S.E.2d 887,
891 (Va. 2017). Thus, a suit in equity generally lacked
preclusive effect on a later action at law “unless the
very matter in controversy in the pending action was
decided in the prior suit.” Wright v. Castles, 349
S.E.2d 125, 128 (Va. 1986).
These limitations on claim preclusion became
outmoded as joinder rules became less restrictive.
Today, plaintiffs can usually seek all available relief
in a single suit. Reflecting this fact, the modern
trend—and the one adopted by the Second
Restatement of Judgments—is to expand claim
preclusion to cover all claims arising from the same
“transaction” underlying the prior action.
See
generally Keith v. Aldridge, 900 F.2d 736, 739–40 (4th
Cir. 1990) (discussing transactional approach). The
Virginia Supreme Court adopted a similar
transactional approach in 2006 when it promulgated
Rule 1:6, which provides that all claims relating to the
“same conduct, transaction or occurrence” fall within
the scope of claim preclusion. Va. Sup. Ct. R. 1:6(a).
That holds true “whether or not the legal theory or
rights asserted in the second or subsequent action
were raised in the prior lawsuit, and regardless of the

14a
legal elements or the evidence upon which any claims
in the prior proceeding depended, or the particular
remedies sought.” Id. The rule provides only one
narrow exception relating to certain mechanic’s lien
remedies. See Va. Sup. Ct. R. 1:6(c).
Despite Rule 1:6’s sweeping and mostly
unqualified language, where joinder remains limited,
so does the scope of claim preclusion. Even under Rule
1:6, claim preclusion remains “the stepchild of
pleading and joinder rules” and “largely depends on
which claims could have been brought” in the earlier
action. Funny Guy, 795 S.E.2d at 890 (cleaned up).
Indeed, Virginia’s Supreme Court—whose guidance
we must faithfully apply in interpreting the rule—has
held that “[a]ll of the ordinary caveats to res judicata
apply to Rule 1:6’s transactional approach.” Id. at 895
n.15.
One well-recognized caveat is that the
transactional approach assumes “no formal barriers in
the way of a litigant’s presenting to a court in one
action the entire claim including any theories of
recovery or demands for relief that might have been
available to him under applicable law.” Restatement
(Second) of Judgments § 26(1)(c) cmt. c (Am. Law Inst.
1982) (emphasis added). “When such formal barriers
in fact existed and were operative against a plaintiff
in the first action, it is unfair to preclude him from a
second action in which he can present those phases of
the claim which he was disabled from presenting in
the first.” Id.; see also Restatement of Judgments
§ 62(a) & cmt. k (Am. Law Inst. 1942) (explaining that
a plaintiff could split his cause of action where doing
so “was essential to preserving his rights”).

15a
Here, Passaro could not have presented his
entire case in one action.
Virginia’s grievance
procedures offer substantive claims that employees
cannot pursue in a typical civil action. In particular,
the grievance process appears to be the only
mechanism by which a Virginia state employee can
have disciplinary action overturned for violating
internal policies of the state agency that employed
him. See Virginia Dep’t of Transp. v. Stevens, 674
S.E.2d 563, 566–57 (Va. Ct. App. 2009). And a Title
VII action offers compensatory damages that are
unavailable through the grievance process. Virginia’s
administrative grievance procedures forbid damages
awards, instead permitting limited monetary
remedies such as back pay and, in some cases,
attorney’s fees. See OFFICE OF EQUAL EMP’T &
DISPUTE RESOLUTION, GRIEVANCE PROCEDURE
MANUAL § 5.9, at 19 (2017), available at
http://www.dhrm.virginia.gov/docs/defaultsource/edrdocuments/GPM-2017.pdf; Martin-Bangura
v. Virginia Dep’t of Mental Health, 640 F. Supp. 2d
729, 733 (E.D. Va. 2009).
Title VII affords
compensatory damages for intentional discrimination
that represent a distinct form of relief from back pay,
see 42 U.S.C. § 1981a(b)(2), and encompass distinct
harms such as emotional distress, see Depaoli v.
Vacation Sales Assocs., L.L.C., 489 F.3d 615, 620 (4th
Cir. 2007). Thus, neither the grievance process nor a
Title VII lawsuit offered a single proceeding where
Passaro could litigate all his claims for relief.
Nor can we conclude, at least based on the
record before us, that Passaro could have asserted a
Title VII claim for money damages as part of the
subsequent state-court action appealing the grievance

16a
decision.
The statutory procedures governing
grievance appeals suggest that they cannot feasibly be
joined to a Title VII action seeking damages. There is
no jury, and the deadlines are too rapid to
accommodate a typical civil action: the state court
must hold a hearing within 30 days of receiving the
grievance record and must then decide the case within
15 days of the hearing. Va. Code § 2.2-3006(B). And
the Commonwealth conceded at oral argument that
there is no basis to believe that, when an employee
appeals an administrative grievance decision to state
court, he can join a claim for damages to the agencyreview action.
Because Passaro could not have sought money
damages in the prior suit, claim preclusion does not
bar him from seeking money damages in this federal
action. And he has done just that: his prayer for relief
includes a request for compensatory damages up to the
statutory maximum.
J.A. 125; see 42 U.S.C.
§ 1981a(b)(3) (statutory cap).
Thus, the
Commonwealth did not meet its burden to establish
that claim preclusion barred Passaro’s claim in full,
and we must reverse the district court’s grant of
summary judgment to the Commonwealth.
The Second Circuit, applying New York law in
Davidson v. Capuano, 792 F.2d 275 (2d Cir. 1986),
reached a similar result. There, a state prisoner had
successfully challenged an instance of prison
discipline through a state-court proceeding brought
under Article 78 of New York’s Civil Practice Law and
Rules. Id. at 277. The state raised the defense of claim
preclusion in a parallel federal lawsuit under 42
U.S.C. § 1983 that arose from the same facts. The

17a
Second Circuit observed that “damages for civil rights
violations” were available in the § 1983 action but not
the Article 78 proceeding. 792 F.2d at 278. Thus,
claim preclusion did not bar the § 1983 action for the
same reason it does not bar Passaro’s Title VII claim:
“the initial forum did not have the power to award the
full measure of relief sought in the later litigation.” Id.
The Commonwealth, like the district court,
relies on language in Rule 1:6 stating that claim
preclusion applies “regardless of . . . the particular
remedies sought” in the prior proceeding. Va. R. Sup.
Ct. 1:6(a).
This argument misapprehends the
meaning of the quoted text. Rule 1:6 provides that a
litigant cannot limit the scope of claim preclusion by
choosing to seek only particular remedies in the first
action. Yet there is a critical distinction between the
remedies sought and the remedies available. A
litigant has no right to split his claim by voluntarily
choosing to seek only some of the remedies available
to him, but that is not really a choice when it is thrust
upon him by procedural rules. Thus, under traditional
claim-preclusion principles, a litigant who had to split
his claim to preserve his rights may return to court to
seek remedies that were unavailable to him in the first
proceeding. Virginia’s Supreme Court has made clear
that Rule 1:6 preserves this and other well-recognized
limitations on the scope of claim preclusion. Funny
Guy, 795 S.E.2d at 895 n.15.4
The Commonwealth cites district court decisions that,
relying in part on the “remedies sought” language, applied claimpreclusion in cases very similar to this one. See Johnson v.
Virginia, No. 4:11-cv-26, 2011 U.S. Dist. LEXIS 164521, at *8–9
(E.D. Va. June 16, 2011); Holmes v. Virginia Cmty. Coll. Sys., No.
4

18a
Ultimately, this result is consistent with basic
fairness. If claim preclusion applied in full, then a
litigant in Passaro’s shoes would face a difficult choice.
He would either have to assert all his claims through
the grievance proceeding, forgoing his ability to obtain
compensatory damages (as well as his right to a jury
trial), or rely solely on a traditional civil action, giving
up his right to appeal the police department’s
grievance decision. The common law does not sanction
this result, which lets procedural rules deprive a
litigant of his substantive rights. Virginia law, we
conclude, follows the common law in this regard.
That does not necessarily mean giving litigants
like Passaro a second bite at the apple. If Passaro
raised issues about discrimination and retaliation
during the grievance process, and those issues were
actually decided, then issue preclusion may bar
relitigating them. See generally D’Ambrosio, 809
S.E.2d at 629–30 (discussing issue preclusion under
Virginia law). We do not decide the availability or
scope of issue preclusion, which is not before us.
Moreover, claim preclusion could still conceivably bar
Passaro’s Title VII action to the extent he seeks
remedies (such as reinstatement and back pay) that
were available through the grievance process.
1:09-cv-59, 2010 WL 420048, at *5–6 (W.D. Va. Feb. 1, 2010);
Martin-Bangura, 640 F. Supp. 2d at 737–41. While we can see
how the text of Rule 1:6 led district courts to this conclusion,
Virginia’s Supreme Court has since clarified that traditional
limitations on claim preclusion continue to apply under Rule 1:6.
We therefore find these decisions unpersuasive.
The
Commonwealth also cites our unpublished decision in Davani v.
Clement, 263 F. App’x 296 (4th Cir. 2009), which is inapposite: it
was decided based on issue preclusion, not claim preclusion.

19a
Because the Commonwealth has not advanced that
more limited claim-preclusion argument, we do not
address it. We hold merely that claim preclusion does
not bar Passaro’s Title VII claims in full—that is, even
for compensatory damages unavailable in the prior
suit—which means that the district court erred in
dismissing them on that ground.5
Finally, with great respect for our dissenting
colleague, we decline to certify this issue to the
Virginia Supreme Court. Neither party has requested
certification. To the contrary: the Commonwealth
removed this case from Virginia state court, choosing
to put the issue before the federal courts. Cf. Nat’l
Bank of Washington v. Pearson, 863 F.2d 322, 327 (4th
Cir. 1988) (“If Pearson had wanted the Maryland
Court of Appeals to rule on the matter, he should not
have removed the action to federal court.”). Moreover,
we generally certify questions only when “available
state law is clearly insufficient.” Roe v. Doe, 28 F.3d
404, 407 (4th Cir. 1994). While no Virginia cases
directly address the issue before us today, they do
provide significant guidance, instructing us to follow
the ordinary caveats to claim preclusion in applying
Rule 1:6’s transactional approach. The Restatements
and other persuasive authority clearly support our
conclusion that one of those caveats applies here, and
the Commonwealth has not cited any contrary
authority from other jurisdictions. Cf. Powell v. U.S.
We also do not address, because it is unnecessary for our
decision, Passaro’s argument that the state waived the rule
against claim-splitting and thus its claim-preclusion defense. See
generally Bill Greever Corp. v. Tazewell Nat’l Bank, 504 S.E.2d
854, 856 (Va. 1998) (discussing waiver doctrine).
5

20a
Fid. & Guar. Co., 88 F.3d 271, 273 (4th Cir. 1996)
(declining certification given “clear state of the law in
every other jurisdiction that has addressed the issue”).
Faced with these considerations, we decline to grant
sua sponte certification of the claim-preclusion issue
before us. Of course, should Virginia’s Supreme Court
address that issue in a future case, its decision will be
determinative.
IV.
For these reasons, we affirm the district court’s
dismissal of Passaro’s ADA claim, reverse the grant of
summary judgment dismissing Passaro’s Title VII
claims, and remand for further proceedings consistent
with this opinion.
AFFIRMED IN PART, REVERSED IN PART, AND
REMANDED

21a
TRAXLER, Senior Circuit Judge, concurring in part
and dissenting in part:
I concur in Sections I and II of the majority
opinion. As to how Virginia courts would resolve the
claim preclusion issue in Section III, I would certify
this question to the Supreme Court of Virginia. This
is not a criticism of the majority opinion. The legal
route it outlines is novel, even if correct. In my view,
the impact of this case will be far reaching, as there is
a great deal of litigation in this area of the law. There
is no Virginia case law that directly addresses the
precise issue before us, and I am not entirely certain
that we have reached the conclusion anticipated by the
Virginia court when it promulgated Rule 1:6. If new
ground is to be plowed, I believe it should be done by
the Supreme Court of Virginia.

22a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Norfolk Division
ANTONIO PASSARO, JR.,
Plaintiff,
v.

CIVIL ACTION
NO. 2:17-cv-48

COMMONWEALTH OF
VIRGINIA and VIRGINIA
DEPT. of STATE POLICE,
Defendants.
MEMORANDUM OPINION AND ORDER
This matter comes before the court on a Motion
submitted by the Commonwealth of Virginia and the
Virginia Department of State Police (collectively
“Defendants”) to dismiss the Complaint of Antonio
Passaro, Jr. (“Plaintiff’) for lack of subject matter
jurisdiction, pursuant to Federal Rule of Civil
Procedure 12(b)(1), and for failure to state a claim
upon which relief can be granted, pursuant to Federal
Rule of Civil Procedure 12(b)(6). After reviewing the
Parties’ filings and hearing oral argument, the Court
finds this matter is ripe for judicial determination.
For the reasons set forth below, Defendant’s Motion to
Dismiss is GRANTED IN PART and DENIED IN
PART.

23a
I. FACTUAL AND PROCEDURAL HISTORY
On November 16, 2016, Plaintiff, a former
employee of the Virginia Department of State Police,
filed a Complaint in the Circuit Court for the City of
Virginia Beach against only two Defendants: the
Commonwealth of Virginia and the Virginia
Department of State Police. ECF No. 1. Paragraph 3
of the Complaint incorporates Plaintiff’s EEOC
Charge of Discrimination by reference. ECF No. 1, Ex.
A. Based upon the contents of the Complaint and the
EEOC Charge, the Court construes that Plaintiff
alleges three causes of action.
First, Plaintiff alleges that he was denied a
reasonable accommodation for his disability, in
violation of the Americans with Disabilities Act (ADA)
and the Virginia Human Rights Act (VHRA). Second,
Plaintiff alleges that he was discriminated against on
the basis of his national origin (Italian-American) in
the form of harassment by his supervisors and the
denial of a reasonable accommodation for his
disability, in violation of Title VII. Third, Plaintiff
alleges that he was demoted and terminated in
retaliation for complaining about the denial of a
reasonable accommodation and the harassment, in
violation of the ADA, the VHRA, and Title VII.
On January 26, 2017, Defendants filed their
Motion to Dismiss the Complaint. ECF No. 4. The
Motion to Dismiss consists of four counter-arguments.
First, Defendants argue that Plaintiff’s ADA claims
are barred by the Eleventh Amendment to the U.S.
Constitution.
Second, even if the Eleventh
Amendment doesn’t bar the ADA claims, Defendants

24a
maintain that Plaintiff has not stated a plausible
claim of “disability” under the ADA.
Third,
Defendants argue that Plaintiff has not stated a
plausible claim of discrimination based on national
origin. Fourth, Defendants argue that Plaintiff has
not stated a plausible claim of retaliation. On May 10,
2017, the Court held a hearing on the Motion to
Dismiss.
II. LEGAL STANDARDS
A. Motion to Dismiss under Rule 12(b)(1)
A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(1) is appropriate when the court in
which a claim is filed does not have subject matter
jurisdiction over the claim. Fed. R. Civ. P. 12(b)(1). “If
the court determines at any time that it lacks subjectmatter jurisdiction, the court must dismiss the action.”
Fed. R. Civ. P. 12(h)(3). “The burden of proving subject
matter jurisdiction on a motion to dismiss is on the
plaintiff, the party asserting jurisdiction.” Adams v.
Bain, 697 F.2d 1213, 1219 (4th Cir. 1982).
B. Motion to Dismiss under Rule 12(b)(6)
Federal Rule of Civil Procedure 12(b)(6)
provides for the dismissal of actions that fail to state a
claim upon which relief can be granted. For purposes
of a Rule 12(b)(6) motion, courts may only rely upon
the complaint’s allegations and those documents
attached as exhibits or incorporated by reference. See
Simons v. Montgomery Cty. Police Officers, 762 F.2d
30, 31 (4th Cir. 1985). Courts will favorably construe
the allegations of the complainant and assume that

25a
the facts alleged in the complaint are true. See
Erickson v. Pardus, 551 U.S. 89, 93-94 (2007); Mylan
Laboratories, Inc. v. Matkari, 7 F.3d 1130, 1134 (4th
Cir. 1993). A court will only grant a motion to dismiss
if “it appears to a certainty that the plaintiff would be
entitled to no relief under any state of facts which
could be proved in support of his claim.” Johnson v.
Mueller, 415 F.2d 354, 355 (4th Cir. 1969).
Although a complaint need not contain detailed
factual allegations, “[f]actual allegations must be
enough to raise a right to relief above the speculative
level on the assumption that all the allegations in the
complaint are true.” Bell Atl. Corp. v. Twombly, 550
U.S. 544, 545 (2007). If the factual allegations do not
nudge the Plaintiff’s claims “across the line from
conceivable to plausible, their complaint must be
dismissed.” Id. at 570.
III. DISCUSSION
A. Denial of a Reasonable Accommodation, in
violation of the ADA and the VHRA
In their Motion to Dismiss, Defendants contend
that Plaintiff’s suit against the Commonwealth of
Virginia and the Virginia Department of State Police
(a state agency) violate the state’s sovereign
immunity, which is preserved by the Eleventh
Amendment. Although by its terms the Eleventh
Amendment applies only to suits against a state by
citizens of another state, the Supreme Court has
extended the amendment’s applicability to suits by
citizens against their own states. “The ultimate
guarantee of the Eleventh Amendment is that

26a
nonconsenting States may not be sued by private
individuals in federal court.” Bd. of Trustees of Univ.
of Alabama v. Garrett, 531 U.S. 356, 363 (2001).
There are three exceptions to the doctrine of
sovereign immunity. First, a plaintiff may seek
prospective relief against state officials acting in
violation of federal law under the principles set forth
in Ex parte Young. Here, Plaintiff has not sued any
individuals, rendering this exception inapplicable to
this case. Second, Congress may explicitly abrogate a
state’s Eleventh Amendment immunity. While the
Supreme Court has held that such abrogation has
taken place for Title VII claims (Fitzpatrick v. Bitzer,
427 U.S. 445 (1976)), it has distinguished ADA claims
and held that valid abrogation has not taken place in
the ADA context (Bd. of Trustees of Univ. of Ala. v.
Garrett, 531 U.S. 356 (2001)).
Therefore, this
exception is also inapplicable to this case.
Third, a state may waive its immunity.
Plaintiff’s argument centers on this exception. As
support for this assertion, Plaintiff says that VSP
holds itself out as an “EEO Employer” because the
Virginia
Department
of
Human
Resource
Management (DHRM) prohibits discrimination
against state government employees, including
disability discrimination.
Plaintiff submits that
DHRM publishes handbooks and displays posters that
advise state employees and the public of their rights
under the ADA. Plaintiff also quotes a Virginia state
statute that references federal anti-discrimination
statutes.

27a
The Supreme Court has stated that
“constructive consent” cannot waive 11th Amendment
protections. “[W]e will find waiver only where stated
by the most express language or by such
overwhelming implications from the text as will leave
no room for any other reasonable construction.”
Edelman v. Jordan, 415 U.S. 651, 673 (1974). If the
examples given by Plaintiff (the posters, website
statements of nondiscrimination, handbooks, etc.) are
anything, they are more like “constructive consent,”
which cannot act as a waiver of sovereign immunity.
Plaintiff attempts to prove its waiver argument
by citing a district court case that is based upon the
Supreme Court’s decision in Lapides v. Bd. of Regents
of Univ. Sys. of Ga., 535 U.S. 613 (2002). In Lapides,
a professor in the Georgia state university system filed
a state-law suit in state court against the university
system’s Board of Regents. A Georgia state statute in
effect at that time waived Georgia’s sovereign
immunity from state-law suits in state court. Seeking
to circumvent this statutory waiver, the Board of
Regents removed the case, hoping to claim Eleventh
Amendment immunity from the suit in federal court.
The U.S. Supreme Court held that a state
waives its Eleventh Amendment immunity from suit
on state-law claims when it voluntarily removes a case
to federal court. However, the Supreme Court was
clear that this holding was limited “to the context of
state-law claims, in respect to which the State has
explicitly waived immunity from state-court
proceedings.” Lapides, 535 U.S. 613, 617 (2002)
(emphasis added). The Supreme Court specifically
stated that its holding did not “address the scope of

28a
waiver by removal in a situation where the State’s
underlying sovereign immunity from suit has not been
waived or abrogated in state court.” Id. at 617-18.
Unlike the state of Georgia in Lapides, the
commonwealth of Virginia has not statutorily waived
its Eleventh Amendment immunity from suit in state
court. In many ways, this case is very similar to
Stewart v. North Carolina, 393 F.3d 484, 488 (4th Cir.
2005). In Stewart, the plaintiff sued the state of North
Carolina and the North Carolina Department of
Corrections, alleging both federal and state law
claims. Unlike the state of Georgia in Lapides, but like
the commonwealth of Virginia in this case, the state of
North Carolina in Stewart had not consented to suit in
state court. Therefore, the U.S. Court of Appeals for
the Fourth Circuit (“Fourth Circuit”) held that
Lapides did not apply to Stewart.
The Fourth Circuit said, “Lapides addresses
whether a state that removes an action to federal court
having already consented to suit in its own courts can
invoke Eleventh Amendment immunity; it does not
resolve whether a state that has not consented to suit
in its own courts maintains either the broader concept
of sovereign immunity or Eleventh Amendment
immunity upon voluntarily removing a case to federal
court.” (emphasis added). Stewart, 393 F.3d at 488.
The Fourth Circuit concluded, “We therefore hold that
North Carolina, having not already consented to suit
in its own courts, did not waive sovereign immunity by
voluntarily removing the action to federal court for
resolution of the immunity question.” Id. at 490.

29a
Here, the commonwealth of Virginia has not
waived its Eleventh Amendment immunity from ADA
litigation in state courts. Therefore, Lapides does not
apply here, and Defendants can claim Eleventh
Amendment immunity from the ADA claims.
However, Plaintiff argues that his state law
claims under the Virginia Human Rights Act are not
barred by the Eleventh Amendment.
Plaintiff’s
Complaint requests “further relief as permitted
pursuant to applicable state and federal antidiscrimination provisions.”
Plaintiff’s Charge
references the VHRA (“Virginia Code §2.2-3900 et.
seq.”). Plaintiff’s Response to the Motion to Dismiss
specifically mentions Va. Code § 2.2-3903.
Plaintiff is incorrect. The VHRA only applies to
employers “employing more than 5 but less than 15
persons.” Va Code. § 2.2-3903(B). Therefore, the
VRHA does not afford Plaintiff a cause of action
because each Defendant clearly employs more than 15
people.
B. Discrimination on the Basis of National
Origin, in violation of Title VII
Defendants argue that, as a pleading standard,
Plaintiff must establish a prima facie case of national
origin discrimination under the McDonnell Douglas
burden-shifting framework. This is incorrect. The
Supreme Court has held, “This Court has never
indicated that the requirements for establishing a
prima facie case under McDonnell Douglas also apply
to the pleading standard that plaintiffs must satisfy in
order to survive a motion to dismiss. For instance, we

30a
have rejected the argument that a Title VII complaint
requires greater ‘particularity,’ because this would ‘too
narrowly constric[t] the role of the pleadings.’
Consequently, the ordinary rules for assessing the
sufficiency of a complaint apply.” Swierkiewicz v.
Sorema N.A., 534 U.S. 506, 511 (2002).
In fact, the Twombly standard is applicable
here. Twombly states, “While a complaint attacked by
a Rule 12(b)(6) motion to dismiss does not need
detailed factual allegations, a plaintiff’s obligation to
provide the “grounds” of his “entitle[ment] to relief’”
requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of action
will not do. Factual allegations must be enough to
raise a right to relief above the speculative level, on
the assumption that all the allegations in the
complaint are true (even if doubtful in fact).” Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 555 (2007).
Plaintiff’s Complaint is uncommonly short and
contains only one paragraph of substantive
allegations, which states, “During Passaro’s
employment, he was subjected [sic] unlawful
discrimination, harassment and retaliation, and his
repeated requests for reasonable accommodations
were repeatedly refused and denied.” Plaintiff’s
EEOC Charge provides the following information
regarding his claims:
I am the only Italian assigned to this
unit. I have been continuously been [sic]
subjected to harassment by my superiors
since being in this unit. The harassment
intensified February 21, 2012 when 1st

31a
Sgt. Robert C. Holland had me in his
office for 5 hours lecturing me about
mistakes I made. June 13, 2012, I was
presented with false allegations from
this same superior. I was taken out of
work for 8 weeks in July 2012. I
complained of discrimination as early as
March 29, 2012. On September 12, 2012,
my doctor requested I be transferred
from the unit. The transfer has not been
granted. On February 6, 2013, I was
informed I was recommended for
demotion to Trooper. On this same day I
was also informed I was recommended
for termination. Both White and Black
Americans who have been recommended
for transfer by this same doctor and they
[sic] have been granted. No reasons have
been given for the above actions. I
believe I have been subjected to
harassment and denied reasonable
accommodation because of my national
origin - Italian in violation of Title VII ....
I believe I have been recommended for
demotion and discharge in retaliation for
complaining of discrimination and
requested a reasonable accommodation
for my disability ....
ECF No. 1, Ex. 8.
Defendants argue that Plaintiff has not pled
sufficient facts connecting these alleged incidents with
his national origin. The Court agrees. Plaintiff’s

32a
pleadings do not meet the plausibility requirement of
the Twombly standard.
C. Retaliation, in violation of the ADA, the
VHRA, and Title VII
Defendants argue that Plaintiff’s retaliation
allegation is not sufficiently-pled under the Twombly
standard. Plaintiff’s EEOC Charge clearly explains
that he began complaining of discrimination in March
2012, he was taken out of work in July 2012, his
transfer request was denied in September 2012, and
he was recommended for demotion and termination in
February 2013. He specifically pleads, “I believe I
have been recommended for demotion and discharge
in retaliation for complaining of discrimination and
requested a reasonable accommodation for my
disability in violation of section 704(a) of Title VII.”
The Court finds this to be sufficient to support a Title
VII retaliation claim against Defendants. However, as
the Court explained above, Plaintiff cannot maintain
any claims based upon alleged violations of either the
ADA or the VHRA.
IV. CONCLUSION
For the reasons set forth above, Defendant’s
Motion to Dismiss is GRANTED IN PART and
DENIED IN PART. The Motion to Dismiss is
GRANTED on all of Plaintiff’s claims that are based
on alleged violations of the ADA or the VHRA claims.
The Motion to Dismiss is also GRANTED on
Plaintiff’s claim of discrimination on the basis of
national origin in violation of Title VII. However,
Plaintiff is granted FIFTEEN (15) DAYS from the date

33a
of this Order to amend his Complaint to supplement
the factual allegations supporting his claim of
discrimination on the basis of national origin in
violation of Title VII.
The Motion to Dismiss Plaintiff’s claim of
retaliation in violation of Title VII is DENIED. The
lime limit within which Defendants must file a
responsive pleading to Plaintiff’s claim(s) shall be set
by either the filing of Plaintiff’s Amended Complaint
or the expiration of the fifteen-day period in which
Plaintiff can amend his Complaint, whichever occurs
first. The Court DIRECTS the Clerk to send a copy
of this Order to the Parties.
IT IS SO ORDERED.

Norfolk, Virginia
May 11, 2017

/s/ Raymond A. Jackson
Raymond A. Jackson
United States District
Judge

34a
FILED: September 16, 2019
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 18-1789
(2:17-cv-00048-DEM)

ANTONIO PASSARO, JR.
Plaintiff - Appellant
v.
COMMONWEALTH OF VIRGINIA; VIRGINIA
DEPARTMENT OF STATE POLICE
Defendants - Appellees

ORDER
The petition for rehearing en banc was
circulated to the full court. No judge requested a poll
under Fed. R. App. P. 35. The court denies the petition
for rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

35a
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Norfolk Division
ANTONIO PASSARO, JR.,
Plaintiff,
v.

CIVIL ACTION
NO.: 2:17cv48

COMMONWEALTH OF
VIRGINIA
&
VIRGINIA DEPARTMENT OF
STATE POLICE,
Defendants.
JUDGMENT IN A CIVIL CASE
Decision by the Court. This action
came for decision before the Court. The
issues have been considered and a
decision has been rendered.
IT IS ORDERED AND ADJUDGED that
Defendants’ Motion for Summary Judgment is
GRANTED.
DATED: 6/21/2018

FERNANDO GALINDO,
Clerk

36a
By: s/
J. Rinehart, Deputy
Clerk

